OIG Investigative Reports, Beaumont, TX., April 14, 2014 - Former Beaumont ISD Employees Guilty of Stealing over $4 million
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
EASTERN DISTRICT of TEXAS
Department of Justice
Office of Public Affairs
FOR IMMEDIATE RELEASE
April 14, 2014
Former Beaumont ISD Employees Guilty of Stealing over $4 million
BEAUMONT, Texas – The former Director of Finance and Comptroller of the Beaumont Independent School District (BISD) have pleaded guilty to federal charges in the Eastern District of Texas, announced U.S. Attorney John M. Bales today.
Devin Wayne McCraney, 35, of Beaumont, pleaded guilty to the charge of fraud upon programs receiving federal funds today before U.S. District Judge Ron Clark.
Sharika Baksh Allison, 43, of Beaumont, pleaded guilty to the charge of conspiracy to commit fraud upon programs receiving federal funds today before Judge Clark.
According to information presented in court, McCraney, Director of Finance for BISD, and Allison, Comptroller for BISD, devised schemes in which they embezzled over $4 million from BISD.  McCraney and Allison were indicted by a federal grand jury on Jan. 8, 2014.
"The guilty pleas are an important milestone, not just for the Government and the Defendants, but for citizens of Beaumont, said U.S. Attorney Bales.  "Lately, much of the news coming from BISD has been disappointing but its mission to educate Beaumont’s children remains critically important.  The joint task force will continue to diligently work to insure that individuals who are ripping off BISD and impugning both the mission, and the many good public servants who are committed to that mission, are held accountable.”
"These defendants knowingly and willfully abused their position of trust to steal education funds that were supposed to be used to provide services for the most innocent of victims – school children.  That is unacceptable,” said Neil Sanchez, Special Agent in Charge of the U.S. Department of Education Office of Inspector General’s South Central Regional Office.  "I’m proud of the work of OIG Special Agents and our law enforcement colleagues for holding these individuals accountable for their criminal actions.”
"The admission of guilt today by these defendants is one more step in the process of restoring the public’s faith and belief in law and order in our community,” said Jefferson County District Attorney Cory Crenshaw.  "I sincerely hope the mission of our task force is made evident by these guilty pleas which allow our entire community to see clearly that we have people who allow their own greed to put the future of our children at great risk.  We will continue in our goal to do what is required to bring all of those responsible to justice and I continue to ask that those with knowledge of wrongdoing within our school district to promptly come forward.”
McCraney faces up to 10 years in federal prison and restitution of $4,041,705.27.  Allison faces up to 5 years in federal prison and restitution of up to $1,351,983.11.  Sentencing dates have not been set.
This case is being prosecuted as part of the Joint Task Force established in March 2014 between the U.S. Attorney’s Office for the Eastern District of Texas and the Jefferson County District Attorney’s Office to investigate and prosecute major crimes – more specifically, violent crime and crimes related to the abuse of public trust in Jefferson County, Texas.
If you have any information related to this matter, please call the Federal Bureau of Investigation at 409-832-8571.
This case is being investigated by the Federal Bureau of Investigation and the U.S. Department of Education Office of Inspector General.  This case is being prosecuted by Assistant U.S. Attorneys Christopher T. Tortorice and Joseph R. Batte.
####
Top
Printable view
Last Modified: 04/15/2014
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov